                     United Education Institute
          Eligibility to Participate in Title IV Programs



                                      FINAL AUDIT REPORT




                                 Audit Control Number A0990002
                                            July 1999




Our mission is to promote the efficient                 U.S. Department of Education
and effective use of taxpayer dollars                   Office of Inspector General
in support of American education                        Sacramento, California
                                NOTICE

Statements that financial and/or managerial practices need improvement or
recommendations that costs questioned be refunded or unsupported costs be
adequately supported, and recommendations for the better use of funds, as
well as other conclusions and recommendations in this report, represent the
opinions of the Office of Inspector General. Determinations on these matters
will be made by the appropriate Education Department officials.
                           Table of Contents


                                                                        Page

Executive Summary .. .. 1

Audit Results .... 2

     United Education Institute Failed to Meet
     the Non-Title IV Revenue Percentage Requirements ....... 2

     Recommendations ............ 6

     UEI Comments ..... 6

     OIG Response . 7

Other Matters  8

Background ... 9

Purpose and Methodology .....  10

Statement on Management Controls ........ 11

Attachment  United Education Institute's Response to the Report ......... 12
                                Executive Summary


United Education Institute (UEI), a proprietary institution with corporate offices in Irvine,
California, did not qualify as an eligible institution for participation in the Title IV Student
Financial Assistance Programs. The 1992 reauthorization of the Higher Education Act (HEA)
added a provision to the Act that states the term proprietary institution of higher education
means a school . . . which has at least 15 percent of its revenues from sources that are not
derived from [HEA, Title IV] funds. . . . This requirement is referred to as the 85 Percent Rule.
The 1998 amendments to the HEA, enacted on October 7, 1998, changed the provision to require
that a proprietary institution have at least 10 percent of its revenue from non-Title IV sources.

UEI received only 8.8 percent of its revenues from non-Title IV sources during its fiscal year
ended October 31, 1997. As a result, the institution was ineligible to participate in the Title IV
programs as of November 1, 1997. UEI also failed to meet the 10 percent minimum requirement
for non-Title IV revenue in its fiscal year ended October 31, 1998. In that year, the institution
derived only 6.1 percent of its revenue from non-Title IV sources.

In its fiscal year 1997 financial statements, UEI reported that it met the non-Title IV revenue
percentage requirement. UEIs reported compliance was based on a calculation that used the
accrual basis of accounting, rather than the required cash basis. Subsequently, UEI recalculated
its percentage using the cash basis, but continued to overstate the percentage of non-Title IV
revenues by improperly including an amount for institutional loan principal. This amount did
not represent non-Title IV cash revenue received by the institution in accordance with Title 34 of
the Code of Federal Regulations (CFR), Section 600.5. UEI also included an amount for
institutional loan principal in its fiscal year 1998 calculation.

We recommend that the Chief Operating Officer for the Office of Student Financial Assistance
Programs take emergency action to terminate the participation of UEI in the Title IV programs.
The Chief Operating Officer should require UEI to return to lenders the Federally-guaranteed
Title IV loans disbursed after October 31, 1997. In addition, the Chief Operating Officer should
also require that UEI return Federal Title IV grant and Federal Work Study funds received from
the U.S. Department of Education (Department) after that date. As of October 31, 1998, UEI
had received about $14.7 million in loans, $6.9 million in grants, and $179,000 in Federal Work
Study funds for periods after the institution became ineligible.

In its comments on the draft report, UEI did not agree with the finding and recommendations
presented. We included UEI's comments as an attachment to this report.




ED-OIG                                ACN A0990002                                   Page 1
                                        Audit Results


We concluded that UEI failed to meet the non-Title IV revenue percentage requirements.
Specifically, it did not derive at least 15 percent of its revenues from non-Title IV sources during
its fiscal year ended October 31, 1997, nor at least 10 percent of its revenues from non-Title IV
sources during its fiscal year ended October 31, 1998. UEI overstated its percentage of non-Title
IV revenues by improperly including amounts for institutional loan principal in its calculations.
Also, as noted in the Other Matters section of the report, UEI did not properly report its Title IV
revenue percentage in its fiscal year 1997 financial statements.


United Education Institute Failed to Meet the
Non-Title IV Revenue Percentage Requirements


As of November 1, 1997, UEI did not qualify as an eligible proprietary institution of higher
education, because it did not have sufficient non-Title IV revenues to meet the minimum
requirements. The 1992 reauthorization of the Higher Education Act (HEA) added a provision
to the Act that states the term proprietary institution of higher education means a school . . .
which has at least 15 percent of its revenues from sources that are not derived from [HEA, Title
IV] funds . . . . The 1998 amendments to the HEA, enacted on October 7, 1998, changed the
provision to require that a proprietary institution have at least 10 percent of its revenue from non-
Title IV sources. This institutional eligibility requirement is codified in Title 34 CFR Section
600.5(a)(8). The regulations provide the formula for assessing whether an institution has
satisfied the requirement and specify that amounts used in the formula must be received by the
institution during its fiscal year. Specifically, 34 CFR Section 600.5(d)(2)( i) states that . . . the
title IV, HEA program funds included in the numerator and the revenue included in the
denominator are the amount of title IV, HEA program funds and revenues received by the
institution during the institutions last complete fiscal year; . . . .

UEIs receipts from non-Title IV sources were less than 15 percent of its revenues for fiscal
year 1997 and less than 10 percent for fiscal year 1998. The following table summarizes UEIs
calculations and the OIGs adjusted calculations. The amounts shown are for UEIs fiscal years
ending October 31.




ED-OIG                                  ACN A0990002                                     Page 2
Table 1. Comparative Computations of UEIs Percentage of Non-Title IV Funds. In fiscal years
1997 and 1998, UEI did not have sufficient non-Title IV revenues to meet the minimum requirements.



                                             United Education Institute
                                                        1997                                 1998
            Revenue Received                       (15% Minimum)                        (10 % Minimum)
                                             Per School          Per OIG          Per School1         Per OIG

             Title IV Revenue:
    Pell Grant                                 $4,549,393         $4,549,393         $6,477,973        $6,477,973
    Federal Supplemental Educational
                                                 $310,442           $232,831           $507,301          $380,476
    Opportunity Grant 2
    Federal Family Education Loan               $9,908,332        $9,908,332       $14,665,169        $14,665,169

    Perkins Loan Disbursements 3                   $40,401                 $0            ($927)                 $0

       Total Title IV Revenue                 $14,808,568        $14,690,556       $21,649,516        $21,523,618

           Non-Title IV Revenue:

    Principal on Institutional Loans            $1,686,808                           $2,795,446

    Borrower Payments on
                                                                    $182,039                             $287,188
    Institutional Loans
    Job Training Partnership Act,
                                                $1,200,663        $1,200,663         $1,064,347        $1,064,347
    Vocational Rehabilitation, Cash
    Perkins Loan Payments                                            $31,968                              $47,396
       Total Non-Title IV Revenue               $2,887,471        $1,414,670         $3,859,793        $1,398,931

       Total Revenue                          $17,696,039        $16,105,226       $25,509,309        $22,922,549
    Non-Title IV Revenue as a
                                                   16.32%             8.78%             15.13%              6.10%
    Percent of Total Revenue




1
  At the time we completed our review, UEIs fiscal year 1998 calculation had not yet been audited by its Certified
Public Accounting firm.
2
   UEI included funds that it used to meet its matching requirement for the FSEOG Program. In the Analysis of
Comments and Changes section of the Final Rule, the Secretary stated that an institution should not include
institutional matching funds as part of its Title IV Program funds. Title IV revenue should only include funds
received from the Federal Government. The elimination of the FSEOG matching funds from the calculation slightly
increased the institutions percentage of non-Title IV receipts.
3
    The transactions for the Perkins Loan Program include the Federal Capital Contribution (FCC), institutional
capital contribution (required institutional matching funds), Perkins Loan disbursements, and borrower payments
(principal and interest) on Perkins Loans. We concluded that only the FCC and borrower payments provide an
inflow of cash (revenue received) to the institution from tuition, fees and other institutional charges. Therefore, we
eliminated the Perkins Loan disbursements from the Title IV funds receipts and included borrower payments
received on Perkins Loans in the non-Title IV receipts. (UEI did not receive FCC in fiscal year 1997 or 1998.) The
result of these adjustments was a slight increase in the institutions percentage of non-Title IV receipts.
ED-OIG                                         ACN A0990002                                               Page 3
Proprietary institutions that fail to satisfy the non-Title IV revenue percentage requirements lose
their eligibility to participate in Title IV programs on the last day of the fiscal year covering the
period that the institution failed to meet the requirement. Therefore, the institution was ineligible
to receive Title IV funds as of November 1, 1997.

UEI improperly included amounts in its calculations that did not represent non-Title IV
revenue received during the fiscal year. UEI originally calculated its fiscal year 1997 non-Title
IV revenue percentage using the accrual method of accounting. For our review, UEI provided a
cash-based recalculation, but did not fully convert all revenue to the cash basis. UEI continued
to include the principal amount for its institutional loans as non-Title IV revenue received in its
fiscal year 1997 recalculation and its fiscal year 1998 calculation. This gave the impression that
UEI met the required percentages of non-Title IV revenues when, in fact, UEI had not met the
requirement. Table 1 shows the amounts that UEI included in its computations.

Amounts used in the non-Title IV revenue calculation must represent revenue received during
the fiscal year. Title 34 CFR Section 600.5(d)(2)( i) specified that the amounts to be used in the
calculation are Title IV funds and revenues received by the institution during the fiscal year.
The Financial Accounting Standards Board (FASB) provides a definition of revenue in its
Statement of Financial Accounting Concepts No. 6. The FASB defines revenues as inflows or
other enhancements of assets of an entity or settlements of its liabilities (or a combination of
both) from delivering or producing goods, rendering services, or other activities that constitute
the entitys ongoing major or central operations. The FASB Statement also states that
Revenues represent actual or expected cash inflows (or the equivalent) that have occurred or
will eventuate as a result of the entitys ongoing major or central operations. 4 The accounting
method that recognizes revenues when amounts are received is referred to as cash basis
accounting. In contrast, the accrual basis of accounting recognizes revenue when sales are made
or services are performed, regardless of when cash is received.

When the regulation covering institutional eligibility requirements was issued on April 29, 1994,
the Department stated its position on including institutional loans as revenue. In the Analysis of
Comments and Changes section of the Final Rule, the Secretary stated that:

           An institution is not prohibited from including institutional charges that were paid [emphasis
        added] by institutional loans as revenue  provided that the  loans are valid and not just part
        of a scheme to artificially inflate an institutions tuition and fee charges. For this purpose, the
        Secretary does not consider institutional loans to be real unless such loans are routinely repaid by
        the student borrowers...
           In this connection, the Secretary will scrutinize institutions that raise their tuition and fee
        charges to avoid the 85 percent rule but can show no actual payment of those additional charges,
        or payment through artificial institutional  loans .

While the preamble indicates that institutional loans could be included, the regulations stress that
revenue used in the calculation must be received. Also, the Secretary specified in the preamble
that institutions will use a cash basis of accounting for both title IV, HEA program funds and
revenues. He further explained that Under a cash basis of accounting, the institution reports
revenues on the date that the revenues are actually received.


4
    FASBs Statement of Financial Accounting Standards No. 95 defines cash equivalents as short-term, highly
liquid investments that are both readily convertible to known amounts of cash and so near their maturity that they
present insignificant risk of changes in value because of changes in interest rates.
ED-OIG                                          ACN A0990002                                      Page 4
The institutional loan principal amounts that UEI included in its calculation did not represent
revenue received during the fiscal year. The institutional loan principal amounts represent the
portion of the loan that the school has earned by providing educational services to the students. 5
As noted in the previous section, cash basis accounting recognizes revenue when cash is received
rather than when services are provided. Therefore, the institutional loan principal amounts
should not have been included in the calculation as non-Title IV revenues. Instead, UEI should
have included the borrower payments (principal and interest) received on the schools
institutional loans during the applicable fiscal year. The amount of borrower payments that UEI
received in fiscal years 1997 and 1998 are shown as Borrower Payments on Institutional Loans
in Table 1.

UEI was ineligible for Title IV funds it received since November 1, 1997. Because it did not
meet the non-Title IV revenue percentage requirements for its fiscal year ended October 31,
1997, UEI lost its eligibility to participate in the Title IV programs on November 1, 1997. The
following table shows the amount of Title IV funds, as of October 31, 1998, that UEI had
received since its loss of eligibility.

Table 2. Title IV Funds Received by UEI from November 1, 1997 through October 31,
1998. 6 UEI received over $21 million in Title IV program funds after it became ineligible to participate in those
programs.


                                          United Education Institute

                            Title IV Funds Received                          1998
                      Stafford Loan (subsidized)                          $6,000,407
                      Stafford Loan (unsubsidized)                       $7,596,521
                      PLUS Loan                                           $1,068,242
                             Total Loans                                $14,665,170
                      Pell Grant                                         $6,477,973
                      Federal Supplemental Educational
                                                                           $380,475
                      Opportunity Grant
                            Total Grants                                 $6,858,448
                      Federal Work Study                                    $178,736
                      Total Title IV Funds                              $21,702,354

UEI has continued to receive Title IV funds for the period subsequent to October 31, 1998.




5
   We found that UEIs institutional loans were valid, did not appear to be part of a scheme to artificially inflate
tuition, and were routinely repaid by student borrowers.
6
    The grant and loan amounts in Table 2 are the total funds disbursed (net of refunds) as shown by UEIs records.
The Federal Work Study amounts were obtained from the school servicers records.
ED-OIG                                         ACN A0990002                                         Page 5
Recommendations
We recommend that the Chief Operating Officer of the Office of Student Financial Assistance
Programs:

1.       Initiate emergency action to terminate UEIs participation in the Title IV programs.

2.       Require that UEI return to lenders the Federal Family Education Loans received after
         October 31, 1997. UEIs records showed that, as of October 31, 1998, those funds
         totaled about $14.7 million.

3.       Require that UEI return Pell Grant, Federal Supplemental Educational Opportunity Grant,
         and Federal Work Study funds received after October 31, 1997. UEIs records showed
         that, as of October 31, 1998, the grant funds totaled about $6.9 million. In addition, the
         schools servicers records showed that, as of October 31, 1998, the Federal Work Study
         funds totaled about $179,000.

UEI Comments
UEI disagreed with our conclusion and recommendations. UEI stated that the OIG had
focused on the word paid in the preamble statement on institutional scholarships and loans to
argue that the Secretary meant to consider only loan payments received from an external source
as an inflow of revenue or cash. UEI claimed that institutions and accountants reviewing the
preamble have frequently concluded that the statement clearly meant that institutional loans
could be treated as revenue in the percentage calculation. UEI also cited letters countersigned by
Departmental staff and conversations with Departmental and OIG staff to support its claim that
institutional loans could be treated as revenue in the calculation in the year in which the loans
were made.

UEI claimed that the Secretary had created a regulatory basis of accounting governed by rules
established in the regulations and other guidance. UEI also stated that the Secretary did not
intend that institutions use pure cash based accounting for the calculation. As support for this
last statement, UEI referred to the preamble language on using institutional matching funds in
the percentage calculation and to regulations covering cash management and the reimbursement
payment method.

UEI stated that enforcing the reports recommendations would violate the Departments
obligation to apply its regulations uniformly. Also, it stated that UEI was entitled to a safe
harbor from penalty for fiscal years 1997 and 1998 on grounds that it acted in good faith
reliance on instructions given by the Secretary and guidance provided by the Department.

In its response, UEI also included several statements regarding our use of the FASB Concept
Statement in the report. It stated that the Concept Statement does not establish a standard and is
not a document upon which the OIG can properly rely for its conclusions . It referred to the
hierarchy of Generally Accepted Accounting Principles (GAAP), which establishes the order for
the most authoritative sources of guidance for an auditor. UEI also stated that the Concept
Statement was not intended to define the timing of recognition of revenue.




ED-OIG                                 ACN A0990002                                   Page 6
OIG Response

UEIs comments did not change our position.                    Recollections of conversations and
statements countersigned by Departmental staff do not have the same legal force as regulations
issued pursuant to formal rulemaking. Title 34 CFR Section 600.5(d)(2)( i) specifically states
that the amounts included in the percentage calculation be Title IV program funds and revenues
received by the institution during the institutions fiscal year. The Secretary was explicit in the
preamble to the regulations that institutions use a cash basis of accounting for both Title IV
funds and revenues. Under cash-basis accounting, revenues are recognized when an actual cash
inflow to the institution occurs.

UEIs claim that the Secretary had established his own regulatory basis of accounting has no
merit. The regulations issued by the Secretary only specified a methodology for calculating a
percentage that is to be reported in a footnote to the institutions audited financial statement, not
a basis of accounting. Also, UEIs support for the statement that cash-basis, in the context of the
regulation, does not mean pure cash-basis is flawed. In the preamble to the regulations, the
Secretary did state that matching funds should not be included in the numerator of the
calculation. However, the absence of a statement regarding the denominator does not negate
other statements contained in the preamble. As noted above and in the report, the Secretary
made a clear statement in the preamble that institutions must use a cash basis of accounting for
amounts included in the 85 Percent Rule calculation. Regulations governing cash management,
the reimbursement payment method, and other requirements of the Title IV program are not
applicable to the non-Title IV revenue calculation.

We agree that the Department should uniformly apply its regulations to institutions. However ,
UEI did not provide any examples to support its statement that enforcement of the regulations as
presented in our report would be inconsistent with other enforcement actions taken by the
Department. Also, the HEA provision and the regulations covering the non-Title IV revenue
percentage requirement do not provide for a safe harbor. The HEA clearly states the revenue
percentage requirement must be met for proprietary institutions to be eligible to participate in
Title IV programs. The regulations are clear that institutions failing to meet the minimum
percentage lose their eligibility on the last day of the fiscal year covered by the percentage
calculation. UEI lost its eligibility to participate in Title IV programs on October 31, 1997.
Therefore, it was ineligible for Title IV funds received after that date.

The Concept Statement is an appropriate reference for the definition of the term revenue. The
revenue definition is used both in the Concept Statement and in the American Institute of
Certified Public Accountants (AICPA) Audit and Accounting Guide: Not-for-Profit
Organizations. The Guide is a Level 2 source in the hierarchy of GAAP. We agree that the
Concept Statement does not define the timing for recognition of revenue. The Secretary defined
when revenue should be recognized for purposes of the percentage calculations when he
specified cash basis of accounting.




ED-OIG                                 ACN A0990002                                    Page 7
                                     Other Matters


Revenue Percentage Calculation for Fiscal Year 1996. As mentioned in the Purpose and
Methodology section of the report, we did not extend our review to include fiscal year 1996.
However, a cursory review of UEIs methodology for calculating its revenue percentage for
fiscal year 1996 found that the calculation included institutional loan principal amounts and
tuition reductions as non-Title IV revenue. These amounts represented over half of the non-Title
IV revenues used in the calculation. Since UEIs reported non-Title IV percentage was 15.17
percent for fiscal year 1996, it is unlikely that UEI met the 15 percent minimum requirement in
that year.

Footnote Disclosure in Financial Statements. UEI did not properly report its Title IV
revenue percentage in its fiscal year 1997 financial statements. Title 34 CFR Section
668.23(d)(4), which was effective July 1, 1997, states that A proprietary institution must
disclose in a footnote to its financial statement audit the percentage of its revenues derived from
the title IV, HEA program funds that the institution received during the fiscal year covered by
that audit. For UEIs fiscal year 1997 financial statement audit, the CPA firm attached a
separate report stating that managements assertion that UEI had complied with the 85 Percent
Rule was fairly stated, in all material respects. The report did not include the percentage of
UEIs revenue derived from Title IV funds during the fiscal year. UEIs fiscal year ended on
October 31, 1997, which is after the effective date of the regulation. Therefore, UEI should have
reported its actual percentage in a footnote to its financial statement audit.

CPA Review of UEIs Percentage Calculation. During our fieldwork, we met with a
representative of the CPA firm that audited UEIs financial statements for the fiscal year ended
October 31, 1997. Our purpose was to obtain information on the extent of the firms review of
UEIs non-Title IV revenue calculation and its basis for concluding that the calculation was
properly performed by the institution. The CPA firm used an accrual-based calculation for its
review and for the corresponding report on managements assertion on compliance with the non-
Title IV revenue percentage requirements. The representative stated that she first became aware
of the cash basis requirement the following year. Also, as noted above, the financial statement
audit did not meet reporting requirements , since UEIs actual percentage was not included in a
footnote to the financial statements.




ED-OIG                                ACN A0990002                                   Page 8
                                    Background


United Education Institute was founded in October 1982 in Los Angeles County, California as
United Electronics Institute. Currently headquartered in Irvine, California, UEI had seven
operating campuses during fiscal year 1997: Los Angeles, Huntington Park, San Diego, Santa
Ana, Van Nuys, Ontario, and Burbank. (The Burbank campus has since closed.) UEI offers
vocational programs in the computer, medical and business fields, and is accredited by the
Accrediting Commission of the Accrediting Council for Continuing Education and Training.
UEI uses the services of Mitchell Sweet & Associates (MSA), a third-party school servicer.

During the period November 1, 1996, through October 31, 1997, UEI received about $14.8
million in Title IV funds from the following programs : Federal Pell Grant, Federal
Supplemental Educational Opportunity Grant, Federal Family Education Loan, and Federal
Work Study.




ED-OIG                             ACN A0990002                                Page 9
                           Purpose and Methodology


The purpose of our audit was to determine if UEI derived the minimum required percent of its
revenues from non-Title IV sources and properly reported its Title IV revenue percentage in its
financial statements and, if applicable, to the U.S. Department of Education.

To accomplish our objective, we obtained background information about the institution and
identified the Departments Office of Postsecondary Education number under which the
institution received its Title IV funds. We reviewed UEIs corporate financial statements and the
most recent Student Financial Assistance audit reports prepared by its CPA firms. We conducted
interviews with UEI officials and reviewed student records. We assessed whether the institution
used the non-Title IV revenue percentage formula in the regulations and reviewed the financial
statements for proper disclosure of the percentage.

To achieve our audit purpose, we analyzed data extracted from UEIs student account ledgers,
which are maintained on a computerized database. Information from student account ledgers
that was used as a basis for our audit conclusion was tied to other sources, such as institutional
bank statements, schools servicers records, and student records. We used data extracted from
the Departments National Student Loan Data System (NSLDS) for comparative purposes and
reports generated from the Departments Postsecondary Education Participants System (PEPS)
for background information purposes.

Our audit covered the institutions fiscal year ending October 31, 1997. After determining that
UEI did not meet the non-Title IV revenue percentage requirement for fiscal year 1997
(minimum 15 percent), we expanded our review to include the fiscal year ended October 31,
1998. For this subsequent year, we evaluated the types of revenues included in UEIs calculation
and determined that UEI did not meet the minimum 10 percent requirement. We did not extend
our review to include fiscal years 1994, 1995, or 1996. (The non-Title IV minimum revenue
percentage requirement became effective for the institutions fiscal year ending October 31,
1994.) As we disclosed in the Other Matters section, there is a significant risk that UEI may not
have met the requirement in fiscal year 1996.

We performed fieldwork at UEIs corporate office and at two campuses from October 13, 1998
through October 29, 1998 and from January 4, 1999 through January 8, 1999. Our audit was
performed in accordance with generally accepted government auditing standards appropriate to
the scope of the review described above.




ED-OIG                                ACN A0990002                                  Page 10
                    Statement on Management Controls


As part of the review, we gained an understanding of UEIs management control structure, and
its policies, procedures, and practices applicable to the scope of the audit. We assessed the level
of control risk to determine the nature, extent, and timing of our substantive tests. For this
report, we assessed management controls related to the institutions calculation and reporting of
its percentage of revenues from non-Title IV sources.

Because of inherent limitations, a study and evaluation made for the limited purposes described
above would not necessarily disclose all material weaknesses in the control structure. However,
our assessment disclosed material weaknesses in the procedures used to calculate and report the
percentage. These weaknesses are discussed in the Audit Results and Other Matters sections of
this report.




ED-OIG                                ACN A0990002                                  Page 11
                 Attachment


         United Education Institute's
           Response to the Report




ED-OIG         ACN A0990002             Page 12
                                 Report Distribution List
                                Audit Control No. A0990002


                                                                                     No. of
Auditee                                                                              Copies
   Mr. Abdi Lajevardi, CEO                                                             1
   United Education Institute
   2201 Dupont Dr., #800
   Irvine, CA 92162

Primary Action Official
    Mr. Greg Woods                                                                      4
    Chief Operating Officer
    Office of Student Financial Assistance Programs
    U.S. Department of Education
    400 Maryland Ave., SW
    Regional Office Building 3, Room 4004
    Washington, DC 20202

Other ED Offices
   Deputy Assistant Secretary for Student Financial Assistance                          1
   Director, Institutional Participation and Oversight Service                          1
   Director, Accounting and Financial Management Service                                1
   Office of Public Affairs                                                             1
   Area Case Director, San Francisco Team                                               1

Other
   Director, California State Bureau for
      Private Postsecondary and Vocational Education                                    1
   Director, Accrediting Council for Continuing Education and Training                  1

Office of Inspector General                                                    (Electronic Copy)
    Inspector General                                                                    1
    Acting Deputy Inspector General                                                      1
    Assistant Inspector General for Investigations                                       1
    Acting Assistant Inspector General for Audit                                         1
    Assistant Inspector General for Operations, Eastern Area                             1
    Assistant Inspector General for Operations, Western Area                             1
    Director, Policy, Analysis and Management Services                                   1
    Director, Advisory and Assistance Staff for Student Financial Assistance             1
    Regional Inspectors General for Audit                                                1 each
               OIG AUDIT TEAM


                     Audit Staff:

  Barbara Koerner, Auditor-in-Charge, CPA, CGFM
                    Chia-Wei Malone
            Stanley Karpinski, Team Leader
      Joel Schoen, National Team Leader, CGFM
Gloria Pilotti, Regional Inspector General, CPA, CGFM


            Information Technology Staff:

                    Gary Forbort


            Advisory & Assistance Staff:

               W. Christian Vierling
              Patrick Howard, Director
